No:
TO THE
SUPREME COURT OF THE UNITED STATES
Frances Endenda
Petitioner
vs
Mario & Letida Arce & Wells Fargo

Respondents

Certificate of Service
Take notice that on February 22, 2021,1 have filed a Writ of Certiorari with the
Clerk of the United States Supreme Court by USPS mail at ZIP Code 60505:
1 First Street NE
Washington DC 20543
Three copies of the Writ of Certiorari are mailed by Federal Express Mail to:
Mario & Letida Arce
6 N 21 Virginia Road, Roselle IL 60172
and 3 copies by USPS to:
Maurice Wutscher LLP
105 West Madison Street 18th Floor, Chic
Frances Em

7/

60602
a,Tetitioner in Pro Sec

73 South Lincoln Ave Unit 1 Rear
Aurora IL 60505
630.656.2854. FEndenda@gmail.com

